HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Substance Abuse and Mental Health Services Administrations Award
Process for a Modification to Contract 280-03-1602 With ORC Macro,"
(A-03-07-00547)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Substance Abuse and Mental
Health Services Administrations Award Process for a Modification to Contract
280-03-1602 With ORC Macro," (A-03-07-00547)
May 22, 2007
Complete
Text of Report is available in PDF format (92 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by
the Substance Abuse and Mental Health Services Administration (SAMHSA) and other components of the Department of Health and Human Services (HHS)
in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition
Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR)
provide, among other things, that HHS agencies award each contract to a
responsible party and document compliance with requirements for full and open
competition and the determination that the price was fair and reasonable.
As part of HHSs hurricane relief operations, SAMHSA
modified an existing contract with ORC Macro.  The existing contract obligated
ORC Macro to provide communications support in developing and disseminating
materials on mental health and substance abuse.  The
modification obligated ORC Macro to produce Web-based
training materials for first responders.  Our
objective was to determine whether SAMHSA complied with FAR and HHSAR
requirements during the award process involving ORC Macro.  SAMHSA complied with
the requirements.